WAIVER

Supreme Court of the United States
No. 20-5374

Amro Elansari y, Columbia County District Attorney's Office
(Petitioner) (Respondent)

 

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
O Please enter my appearance as Counsel of Record for all respondents.

( There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Columbia County District Attorney's Office

 

 

X Llama member of the Bar of the Supreme Court of the United States.

Q lam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

f |< ¢
Signature Ais Ape oe /
Date: &~AR~2o2o
David L. Schwalm, Esq.
OMr. OMs. O Mrs. O Miss

 

 

(Type or print) Name.

Firm. Thomas, Thomas & Hafer, LLP
Address_P-O. Box 999 |
City & State_ Harrisburg, PA Zip 17108-0999

 

 

 

 

Phone _717-255-7643

 

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Cc: Amro Elansari

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
